                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              PERFORMANCE AUDIT OF
                                              HEALTH COVERAGE TAX CREDIT (HCTC)
                                              BRIDGE AND GAP PROGRAMS




                                                                        Date Issued: September 30, 2005
                                                                        Report Number: 02-05-204-03-330
U.S. Department of Labor                                   September 2005
Office of Inspector General
Office of Audit                                            HEALTH COVERAGE TAX CREDIT BRIDGE
                                                           AND GAP PROGRAMS

BRIEFLY…                                                   WHAT OIG FOUND
                                                               •   Participant and expenditure levels in the Bridge
Highlights of Report Number: 02-04-204-03-330,                     and Gap programs were low. Nationally, at
to the Assistant Secretary for Employment and                      June 30, 2004, Bridge and Gap participant
Training. September 30, 2005                                       levels were 4.8 percent of the potentially eligible
                                                                   population, and expenditure levels were less
WHY READ THE REPORT                                                than 7 percent of appropriated funds.

The Trade Adjustment Assistance Reform Act of 2002             •   Several barriers led to low participation. The
established new mechanisms by which certain Trade                  primary barriers included: participant’s share of
Adjustment Assistance (TAA) participants, as well as               premium cost, up-front participant cost, most
eligible Pension Benefit Guaranty Corporation (PBGC)               states not electing to participate in the program,
pension recipients, could receive assistance in covering           effective exclusion of the PBGC population,
the cost of health insurance coverage. The primary                 program awareness, overall program
mechanism for such assistance is a 65 percent Federal              complexity, and lack of timely processing of
tax credit administered by the Internal Revenue Service.           NEG grants.
The credit became available on an advance basis on
August 1, 2003. The Act also established an additional         •   Lack of communication between states and the
mechanism, which was intended to be used as a Bridge               IRS-HCTC, which left unchecked, could lead to
and Gap during the IRS’s HCTC advance option                       Federal funds being at risk.
implementation and enrollment processes, by                    •   Instances where ETA grant management policy
authorizing the use of National Emergency Grant (NEG)              needs reinforcement to ensure grants are
funds under WIA. This report discusses what barriers               operating as intended and that Federal funds
limited program participation and how NEG funds                    are being used efficiently.
continue to go underutilized.
                                                           WHAT OIG RECOMMENDED
WHY OIG DID THE AUDIT
                                                           We recommended that the Assistant Secretary:
The OIG conducted a performance audit to answer
the following questions:                                       1. Conduct an immediate needs assessment of
                                                                  NEG funds.
    •   Did a significant number of potentially eligible
        individuals avail themselves of the program and        2. In consultation with state officials, Federal
        were appropriated funds being utilized?                   lawmakers and partnering Federal agencies
                                                                  develop remedies to identified barriers.
    •   What were the barriers that resulted in low            3. Work with nonparticipating states to address
        individual participation?                                 identified barriers to enhance participation.
    •   Why did most states not participate in the HCTC        4. Work with IRS-HCTC office to implement a
        Bridge and Gap programs?                                  consistent system of communication between
                                                                  the states and the IRS-HCTC and ensure that
    •   Did states comply with pertinent provisions set           proper controls are instituted to safeguard
        forth in the Trade Adjustment Assistance Reform           Federal funds. Reinforce ETA grant
        Act of 2002, Employment and Training                      management policies, which require monitoring
        Administration (ETA) implementation guidance,             and assessments on a regular basis to ensure
        and Federal laws and regulations?                         compliance with grant provisions and Federal
                                                                  laws and regulations.
READ THE FULL REPORT
                                                           ETA generally agreed with our recommendations and
To view the report, including the scope, methodology,      provided potential remedies pertaining to excess funds.
and full agency response, go to:                           ETA also acknowledged the need to address several
                                                           other recommendations however; specific action plans
http://www.oig.dol.gov/public/reports/oa/2005/02-05-       were not provided.
204-03-330.pdf
                                                                Performance Audit of Health Coverage Tax Credit
                                                                                      Bridge and Gap Programs




Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

RESULTS, FINDINGS AND RECOMMENDATIONS .....................................................8

  Finding 1- Participant and Expenditure Levels Were Low ....................................8

  Finding 2- Several Barriers Contributed to Low Participation ............................. 11

  Finding 3- Survey Results – Reasons For Low State Participation ..................... 19

  Finding 4- Weaknesses In Controls Could Put Federal Funds At Risk ............... 21

  Finding 5- Grant Management Needs Improvement.............................................. 24

EXHIBITS...................................................................................................................... 27

  A. Trend Analysis of Bridge and Gap Grant Expenditures
     Quarters Ended March 31, 2004, through December 31, 2004 ....................... 29
  B. Steps to Enroll and Receive Advanced HCTC.................................................. 31

APPENDICIES .............................................................................................................. 33

   A.   Background........................................................................................................ 35
   B.   Objectives, Scope, Methodology, and Criteria................................................ 37
   C.   Acronyms and Abbreviations ........................................................................... 41
   D.   Survey Results – Bridge and Gap Participating States.................................. 43
   E.   Survey Results – Bridge and Gap Nonparticipants ........................................ 45
   F.   Survey Results – Bridge and Gap Participants ............................................... 50
   G.   Agency Response ............................................................................................. 55




U.S. Department of Labor – Office of Inspector General                                                                         1
Report No. 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                                Performance Audit of Health Coverage Tax Credit
                                                                      Bridge and Gap Programs


Executive Summary
The Office of the Inspector General (OIG) conducted a performance audit of the
National Emergency Grants (NEG) used to administer the Health Coverage Tax Credit
(HCTC) Bridge and Gap programs. The audit period was from grant inception of each
selected state through June 30, 2004. We conducted the audit to answer the following
questions:

       •   Did a significant number of potentially eligible individuals avail themselves of
           the program and were appropriated funds being utilized?
       •   What were the barriers that resulted in low individual participation?
       •   Why did most states not participate in the HCTC Bridge and Gap programs?
       •   Did states comply with pertinent provisions set forth in the Trade Adjustment
           Assistance Reform Act of 2002, Employment and Training Administration
           (ETA) implementation guidance, and Federal laws and regulations?

The Trade Adjustment Assistance Reform Act (TAARA) of 2002 (P.L. 107-210) was
signed by the President on August 6, 2002. Among other things, TAARA amended the
Internal Revenue Code of 1986 and the Workforce Investment Act of 1998 (WIA) to
establish new mechanisms by which certain Trade Adjustment Assistance (TAA)
individuals, as well as eligible Pension Benefit Guaranty Corporation (PBGC) recipients,
can receive assistance in covering the cost of health insurance. The primary
mechanism for such assistance is a Federal tax credit administered by the Internal
Revenue Service (IRS). The tax credit is equal to 65 percent of the amount paid by an
eligible individual for coverage of the individual and certain family members under
qualified health insurance coverage. The tax credit was made available on an advance
payment basis on August 1, 2003.

TAARA also established an additional mechanism, which was intended to be used as a
Bridge and Gap during the IRS’s HCTC implementation and enrollment processes.
Bridge funding was utilized to provide interim health insurance coverage cost assistance
until the HCTC advance payment system was implemented by the IRS on
August 1, 2003. Gap funding is used to provide interim health insurance coverage cost
assistance until the IRS completes the advance credit enrollment and first payment
processes under the HCTC program. To carry out the Bridge and Gap programs, $80
million were authorized.




U.S. Department of Labor – Office of Inspector General                                        3
Report No. 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs

Results

1. Did a Significant Number of Potentially Eligible Individuals Avail Themselves
of the Program and Were Appropriated Funds Being Utilized?
Participant and expenditure levels in the Bridge and Gap programs were low.
Nationally, at June 30, 2004, Bridge and Gap participant levels were 4.8 percent
of the potentially eligible population. Expenditure levels were less than 7 percent
of appropriated funds, with significant funds still left to be obligated to states.
Based on expenditure trends at December 31, 2004, appropriated funds will
continue to go underutilized and potentially eligible individuals will not be served.

2. What Were the Barriers That Resulted in Low Individual Participation?

Several barriers led to low participation. The primary barriers included participant
premium cost, up-front participant cost, most states not electing to participate in the
program, effective exclusion of the PBGC population, program awareness, and overall
program complexity. In addition, NEG grants were not processed timely, which led to
delays in implementing the program.

3. Why Did Most States Not Participate in the Bridge and Gap Programs?

The primary reasons 39 states did not participate were lack of administrative
funding, staffing, and systems required to run the program. As a result, the
majority of the potentially eligible population did not have the opportunity to avail
themselves of the program.

4. Did States Comply With Pertinent Provisions Set Forth in the Trade
Adjustment Assistance Reform Act of 2002, ETA Implementation Guidance, and
Federal Laws and Regulations?

There were several instances where controls and grant management need
enhancement to safeguard Federal funds. We generally found a lack of communication
between states and the IRS-HCTC office, which left unchecked, could lead to Federal
funds being at risk. We also found instances where ETA grant management policy
needs reinforcement to ensure grants are operating as intended and that Federal funds
are being used efficiently.




4                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                                Performance Audit of Health Coverage Tax Credit
                                                                      Bridge and Gap Programs

Recommendations

We made 19 recommendations to the Assistant Secretary for Employment and Training.
In summary we recommend that the Assistant Secretary address the following:

•   Conduct an immediate needs assessment of NEG funds. Based on the
    assessment, funds should be redirected as appropriate.

•   In consultation with state officials, Federal lawmakers and partnering Federal
    agencies develop remedies to identified barriers related to participant share of
    premium cost and participant up-front cost. In addition, develop remedies applicable
    to the complexity of the eligibility process, enhancement of coordination with the
    PBGC, increasing awareness at the One Stop level, working with partners towards a
    seamless process, and providing NEG funds on a timely basis.

•   Work with nonparticipating states to address identified barriers to enhance
    participation. Clarify guidance pertaining to the use of administrative funds and
    availability of funds for the development of infrastructure systems. In addition,
    consider where feasible, centralizing processing systems or utilizing systems already
    in place.

•   Work with IRS-HCTC office to implement a consistent system of communication
    between the states and the IRS-HCTC office and ensure that proper controls are
    instituted to safeguard Federal funds. Reinforce grant management policies, which
    require monitoring and assessments on a regular basis to ensure compliance with
    grant provisions, ETA guidance and Federal laws and regulations.

Agency Response
The Assistant Secretary for Employment and Training provided a response dated
September 30, 2005. Generally, ETA concurred with our recommendations.

ETA acknowledged low participant and expenditure levels in the Bridge and Gap
programs and proposed certain actions that may assist in reducing excess awarded
funds. However, ETA did not address unobligated FY 2003 funds of $23.7 million.

ETA concurred that there are many opportunities for improvement. Some
improvements require Congressional action (e.g. participant premium portion) while
others require a review of current administrative processes. ETA also responded that it
clarified the roles and responsibilities for monitoring NEG projects and currently has an
on-site review guide under review, with special attention being given to HCTC projects.

The ETA response is included in its entirety in Appendix G.




U.S. Department of Labor – Office of Inspector General                                       5
Report No. 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs


OIG Conclusion
ETA’s proposed actions should address our concerns regarding excess awarded funds.
Based on ETA’s plan, we consider recommendation 1 resolved but not closed.
Recommendation 1 will be closed upon the execution of specific actions, i.e. completion
of a needs assessment analysis and issuance of guidance regarding the
reprogramming of awarded funds. ETA’s response did not address our concerns
regarding a needs assessment of unobligated FY 2003 funds of $23.7 million. As such,
recommendation 2 is unresolved.

With regard to recommendations 3, 7, 9, 11, 12, and 13, ETA acknowledged the need to
address these areas; however, a specific action plan has not been provided. Therefore,
we consider these recommendations unresolved pending receipt of ETA’s action plan.
ETA indicated it was taking actions to enhance NEG grant management activity.
However, it did not sufficiently address the related recommendations. Therefore,
recommendations 17, 18, and 19 are unresolved pending receipt of revised field
guidance and a review guide covering the cited issues.
We do not agree with ETA’s comments regarding the PBGC and Alternative Trade
Adjustment Assistance (ATAA) populations. Accordingly, we consider
recommendations 5 and 6 unresolved.

ETA did not provide comments applicable to recommendations 4, 8, 10, 14, 15, and 16.
These recommendations are unresolved.




6                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC. 20210




                         Assistant Inspector General’s Report



Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U. S. Department of Labor
200 Constitution Avenue, N. W.
Washington, DC 20210


We conducted a performance audit of National Emergency Grants (NEG) used to
administer the Health Coverage Tax Credit (HCTC) Bridge and Gap programs. Our
objectives were to determine whether a significant number of HCTC potentially eligible
individuals availed themselves of the program and to identify barriers, which could limit
program participation. We also conducted procedures to determine whether
expenditures incurred and reporting systems implemented were in accordance with the
Trade Adjustment Assistance Reform Act (TAARA) of 2002, implementing guidance and
applicable laws and regulations. In cases where issues were inseparable or had an
impact extending to the HCTC program as a whole, we adjusted our work and have
included applicable conclusions in the report. To accomplish these objectives, we
designed our audit procedures to answer the following questions:

       •   Did a significant number of potentially eligible individuals avail themselves of
           the program and were appropriated funds being utilized?
       •   What were the barriers that resulted in low individual participation?
       •   Why did most states not participate in the HCTC Bridge and Gap programs?

       •   Did states comply with pertinent provisions set forth in the TAARA of 2002,
           Employment and Training Administration (ETA) implementation guidance,
           and Federal laws and regulations?

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.




U.S. Department of Labor—Office of Inspector General                                          7
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs

We found that participant and expenditure levels in the Bridge and Gap programs were
low and that funds continue to go underutilized. We identified several barriers that led
to low participation. The primary barriers included: participant premium cost, up-front
participant cost, most states not electing to participate in the program, effective
exclusion of the Pension Benefit Guaranty Corporation (PBGC) population, program
awareness, and overall program complexity. In addition, NEG grants were not
processed timely, which led to delays in implementing the program. We also identified
certain administrative and control issues that are in need of enhancement to safeguard
Federal funds.

RESULTS, FINDINGS AND RECOMMENDATIONS

Objective 1 - Did a Significant Number of Potentially Eligible Individuals Avail
Themselves of the Program and Were Appropriated Funds Being Utilized?

Results and Finding: Participant And Expenditure Levels Were Low

TAARA established a Bridge and Gap mechanism to assist certain Trade Adjustment
Assistance (TAA) participants and eligible Pension Benefit Guaranty Corporation
(PBGC) pension recipients in paying for health care premiums. To carry this out, $80
million of Fiscal Years 2002 and 2003 funds were authorized.
As of June 30, 2004, national Bridge and Gap participant and expenditure levels were
low. Specifically, participant levels were 4.8 percent of the cumulative potential eligible
population and expenditure levels were less than 7 percent of appropriated funds. In
addition, only 11 states elected to participate in the Bridge and Gap programs at
June 30, 2004, with a small increase to 14 by December 31, 2004. Consequently, the
vast majority of the potential eligible HCTC population did not have the opportunity to
avail themselves of the Bridge and Gap programs.
Participation levels were low
Nationally, 4,669 individuals participated in the Bridge and Gap programs through
June 30, 2004. This equates to 4.8 percent of the cumulatively potentially eligible
population of 97,450.1 The low percentage of Bridge and Gap participation is consistent
with participation in the IRS-HCTC advance credit option in which only 17,080 of
333,3312 or 5.1 percent of potentially eligible individuals participated. The percentage
of enrolled Bridge and Gap individuals by participating states is shown of the next page.




1
 Source: IRS-HCTC quarterly report, Cumulative Potentially Eligible Population at June 30, 2004. We
used the IRS report because there is a lack of reliable PBGC information at the state level.
2
    Source: IRS-HCTC quarterly report, Cumulative Potentially Eligible Population at June 30, 2004.

8                                                U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 02-05-204-03-330
                                                    Performance Audit of Health Coverage Tax Credit
                                                                          Bridge and Gap Programs

                              Bridge and Gap
                               Participants     Potentially Eligible
                            Inception Through       Population             Percent of Population
       States                     6/30/04          as of 6/30/04               Participating

       Audited
       Maine                      193                    4,077                        4.7
       Maryland                    32                    5,777                        0.6
       Utah                       246                    2,107                       11.7
          Subtotal                471                   11,961                        4.0
       Unaudited
       North Carolina            2,268                  24,589                       9.2
       New Jersey                    7                   8,012                       0.1
       Minnesota                   168                   4,441                       3.8
       Washington                    5                   8,942                       0.1
       Virginia                    792                  11,698                        6.8
       West Virginia                911                  5,118                       17.8
       Ohio                           0                 22,241                        0.0
       Montana                       47                    448                       10.5
           Total                  4,669                 97,450                         4.8


Expenditure levels were low
Participating states expended $5.4 million or 14 percent of the $38.2 million obligated as
of June 30, 2004. We also analyzed spending through December 31, 2004, and found
a decrease in expenditure trends.

Our concerns over low expenditure levels were previously reported in
Alert Report No.02-04-204-03-330 dated September 30, 2004. Based on the Assistant
Secretary’s response to that report, ETA has taken several positive steps, including
extending grant periods. However, as summarized below, national quarterly
expenditures rates were actually decreasing. Even if grant periods are further
extended, it is highly unlikely that funds will be fully utilized unless significant
performance improvements occur. See Exhibit A for a detail expenditure analysis by
state covering the quarters ending March 31, 2004, through December 31, 2004.


                        Bridge and Gap Quarterly Expenditure Analysis
                                          Cumulative       Percent      Quarter
          Quarter            Awarded      Expenditures Expended        Expenditure
         03/31/04           $35,206,196    $3,042,657        8.6
         06/30/04           $38,227,371    $5,364,411        14.0       $2,321,754
         09/30/04           $56,341,738    $7,462,551        13.2       $2,098,140
         12/31/04           $56,341,738    $8,526,290        15.1       $1,063,739




U.S. Department of Labor—Office of Inspector General                                               9
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs

Furthermore, 30 percent of authorized funds still remain unobligated. As of
December 31, 2004, all FY 2002 funds ($50 million) and $6.3 of FY 2003 funds ($30
million) were obligated leaving $23.7 million unobligated by ETA.

Of the three states we audited as of June 30, 2004, only $1.7 million or 11 percent of
the $15.3 million awarded was expended. Specifics regarding expenditure levels for
each state are presented below:


     State                             Award                  Expended                   Percent
     Maine                         $7,500,000                  $378,158                      5.0
     Maryland                       5,632,000                     29,569                     0.5
     Utah                           2,173,097                  1,281,022                    58.9
           Total                  $15,305,097                 $1,688,749                    11.0



Both Maine and Maryland requested grant periods be extended to June 30, 2005, and
projected excess grant funds in the amount of $6.8 million and $5.2 million, respectively.
ETA extended the period of grant performance through June 30, 2007, for Maine (based
on a secondary request) and June 30, 2005, for Maryland. Based on expenditure trend
analysis through December 31, 2004, funds at Maine and Maryland still remain
underutilized (see Exhibit A for details). Unlike the other two states, Utah maintained a
state operated health plan. Utah expenditure levels were significantly higher primarily
due to the methodology in which medical premiums were calculated and the delay in the
qualification of its state operated health plan. (See findings 5A and 5B on page 24 for
detail.)

Recommendations

The Assistant Secretary for Employment and Training should:

        1.         Conduct an immediate assessment of awarded NEG grants to determine
                   the need for outstanding funds, and redirect funds as deemed appropriate,
                   within the confines of appropriation law.

        2.         Conduct a needs assessment of the remaining unobligated FY 2003 funds
                   totaling $23.7 million.




10                                              U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs


Agency Response
ETA acknowledges low participant and expenditure levels in the Bridge and Gap
programs. ETA agrees with the need for on-going need assessments of appropriated
NEG funds. It also stated that Congress recently passed a bill which authorizes states
to reprogram NEG funds previously awarded to assist victims of Hurricane Katrina.
ETA will advise states of this opportunity which may assist in reducing excess NEG
HCTC program funds. In addition, states with current Bridge/Gap funding have
expressed interest in partnering with nonparticipating states to provide premium
assistance to eligible individuals. ETA believes that option holds promise.

OIG Conclusion
ETA’s proposed actions should address our concerns regarding excess awarded funds.
Based on its plan, we consider recommendation 1 resolved but not closed.
Recommendation 1 will be closed upon the execution of specific actions, i.e. completion
of a needs assessment analysis and issuance of a TEGL regarding the reprogramming
of awarded funds. ETA’s response did not address our concerns regarding a need
assessment of unobligated FY 2003 funds in the amount of $23.7 million. As such
recommendation 2 is unresolved.

Objective 2 – What Were The Barriers That Resulted in Low Individual
Participation?

Results and Finding: Several Barriers Contributed To Low Participation

Several barriers contributed to low participation. These barriers included high cost to
participants; lack of effective outreach systems; program awareness; eligibility and
enrollment processes; and NEGs not being processed timely. Each of these barriers
are discussed in detail below.

Finding 2A. Participant contribution is too costly

Under TAARA, an eligible individual can receive a tax credit equal to 65 percent of the
amount paid for qualified health insurance coverage. Surveys of states and individuals
indicated that the participant’s contribution towards the insurance premium (35 percent)
was too costly and had a negative impact on participation. Eighty percent of
participating states responded that the cost to the participant is prohibitive and has led
to low participation. Nonparticipating states also commented that cost was a factor.




U.S. Department of Labor—Office of Inspector General                                      11
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs
As depicted in the chart below, 71 percent of nonparticipant respondents needing
services3 stated that the premium cost was the main factor for not participating.


       80%
                 71%
       70%
                                            122 Nonparticipants Responded
       60%

       50%
                        Stated as a Percentage of Nonparticipant Responses to Total Respondents
       40%

       30%
                                             21%
       20%
                                                                             14%
       10%

        0%
                  Too Costly                 Too Complex                       Other



An analysis of UI benefits and participant premium contributions at the three states
audited highlights the significant impact premium costs has on potential participants. As
shown below, at the three states audited, the participant premium contribution
(35 percent of the total medical premium) can be as much as 87 percent of the average
UI benefit in Maine, 50 percent in Maryland and 38 percent in Utah.


             $1,400
                                         $1,248
             $1,200                                         $1,140

                                                                                        Avg UI
             $1,000                                                                     Monthly
                                                                                        Benefits
               $800                                                                     High Range
                                                                                        - family plan
                        $606                   $618
                                                                                        (35%)
               $600        $529
                                                  50%             $437
                                                                                        Low Range
                                                                                        - self plan
               $400          87%
                                                                                        (35%)
                                                                   38%
               $200             $134
                                                    $67                $51
                                22%
                  $-                               5%                  4%
                           Maine            Maryland              Utah



3
 Our calculations exclude responses of individuals who did not need services or did not qualify for the
program, i.e., spousal coverage, obtained job, and those who did not qualify, i.e., Medicare.

12                                                    U.S. Department of Labor—Office of Inspector General
                                                                          Report Number: 02-05-204-03-330
                                                   Performance Audit of Health Coverage Tax Credit
                                                                         Bridge and Gap Programs

In addition to the participants’ portion being cost prohibitive, we found that Maine
required the participant to pay 100 percent of the monthly medical coverage premium to
the insurance provider during the gap period. In order to obtain a 65 percent
reimbursement, participants had to provide the state subsequent proof of premium
payments. This methodology made participation in the program more cost prohibitive
and most likely had a negative impact on the level of program participation.

Finding 2B. Need for effective outreach systems to identify PBGC and ATAA
potentially eligible individuals

ETA Training and Employment Guidance letter (TEGL) 10-02 dated October 10, 2002,
states that the potentially eligible populations consist of individuals receiving a Trade
Readjustment Allowance (TRA) or would be eligible for TRA except that he/she has not
yet exhausted UI benefits; individuals receiving benefits under ATAA; and individuals
who are 55 years of age or older and receiving a pension benefit paid by PBGC. As per
TEGL 24-03 dated April 14, 2003, the state’s role is to identify the TRA and ATAA
populations and report them to the IRS. PBGC reports its population directly to the IRS.

We found that Maine, Maryland and Utah identified and reported TAA/TRA populations.
However, Maine and Maryland did not effectively identify PBGC and ATAA populations
in order to conduct outreach efforts. As a result, PBGC and ATAA potentially eligible
populations were effectively excluded from those Bridge and Gap programs.
Furthermore, as of January 2005, Utah informed us that due to PBGC privacy concerns,
they no longer received a PBGC listing. As such, effective January 2005 none of the
states audited have effective systems to identify the PBGC population.

As depicted below, at June 30, 2004, while the national ATAA population is not
significant, the PBGC population is a significant portion (47 percent) of the potentially
eligible population.4


                                                    ATAA
                                                    0.09%
                                                     (300)

                           PBGC
                          46.63%
                       (155,440)
                                                               TAA/TRA
                                                                53.28%
                                                               (177,591)

                       Total Potentially Eligible Population 333,331


4
 Per the Internal Revenue Service Health Coverage Tax Credit Quarterly report as of June 30, 2004, the
cumulative potentially eligible population by category.

U.S. Department of Labor—Office of Inspector General                                                13
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs

PBGC

Two of the three states, Maine and Maryland, did not have effective systems to identify
PBGC individuals in order to conduct outreach. Utah at the time of audit was receiving
a listing of individuals from PBGC on a quarterly basis. As stated above, as of
January 2005, Utah no longer received a PBGC listing due to PBGC privacy concerns.
As such, effective January 2005 none of the states audited have effective systems to
identify the PBGC population. Maryland received a partial listing, representing a small
portion of the PBGC population from the IRS on a biweekly basis. This partial listing
represented individuals that contacted the IRS regarding the HCTC program and gave
consent to the IRS to provide their contact information to the state. Maryland did not
use the consent list for outreach efforts. Instead, Maryland used this list to check the
status of the HCTC Bridge and Gap participants to ensure that individuals were not
receiving duplicate payments.

ATAA

Although Utah had a system in place to identify and report the ATAA population, at time
of audit, Maine and Maryland did not have a process in place to identify and report
eligible ATAA individuals. Without this identification process, Maine and Maryland could
not conduct outreach or report names to the IRS-HCTC office.

Finding 2C. Enhanced program awareness needed

One-third of nonparticipants surveyed were unaware of the HCTC program. The
majority of these individuals responded that they would have considered enrolling had
they been aware of the HCTC program. Considering that the nonparticipating
population through June 30, 2004, was over 300,000, this would equate to
approximately 100,000 potentially eligible individuals that were unaware of the program.
In addition, 50 percent of the participating states also commented about the need for
increased awareness and program outreach. Our survey indicated that most individuals
that knew about the program learned about it through a letter from the state workforce
agency. On average, less than 20 percent of participants/nonparticipants indicated they
learned about the program through the One Stop career center.

Finding 2D. Eligibility and enrollment process is complex and fragmented

The eligibility and enrollment process for HCTC is complex and fragmented. From the
point of unemployment, an individual and/or a representative must interact with the U.S.
Department of Labor (USDOL), the IRS, the state and a health plan provider. Each of
these organizations has its own unique part in the eligibility and enrollment process.
There was no seamless methodology to ensure that a potential participant had access
to all of the services intended under TAARA. This multi-agency, multi-step process for
eligibility and enrollment adds to the time and complexity and impacts participation. See
Exhibit B for detailed steps to enroll in the HCTC advance program.


14                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs

Participating states also noted that the system was complex and involved too many
parties; individuals were confused regarding the intent of the program, the application
process, and differences between the IRS-HCTC and state Bridge and Gap program.
In fact, the result of the survey illustrates the confusion between the two programs.
Specifically, we found that 15 percent of nonparticipants actually participated, but only in
the IRS-HCTC program. We asked those individuals why, and 85 percent who
responded stated that they did not know about the state Bridge and Gap programs.

Further, 5 of 10 participating states indicated that the long TRA eligibility process
contributed to low participation. Some states indicated that the items required in
determining TAA/HCTC eligibility status takes a long period of time to establish and
hinders a time sensitive benefit. Several months can pass before the complete HCTC
eligibility status of an individual has been determined and is reported to the IRS-HCTC
office. A state also cited that an individual is not potentially eligible for HCTC until they
are eligible for TRA. It was noted that an individual is not entitled to TRA until the first
week of unemployment that begins more than 60 days after the filing date of a petition
that is later certified. Therefore, the system has an inherent time lag. During the entire
TRA eligibility and HCTC enrollment process, the individual has to pay up-front 100
percent of the heath insurance premium. State officials suggested that lifting or relaxing
TRA eligibility requirements for HCTC purposes would increase participation in the
program.

Finding 2E. NEG Applications For the Bridge and Gap Programs Were Not
Processed Timely

The NEG applications were not processed in a timely manner. The TAARA of 2002
required that the Secretary not later than 15 days after the date on which the Secretary
received a completed application from a state or entity, notify the state or entity of the
determination of the Secretary with respect to the approval or disapproval of such
application. As of June 30, 2004, it took ETA on average 86 days from the date of
application receipt to application approval and 114 days from application receipt to
actual award. This had the effect of delaying funds available for intended program
purposes.

Four of the 10 participating states responding to the survey also commented that
timeliness of NEG processing was a barrier and resulted in delayed implementation.
One state commented that, by the time of program implementation, it had missed the
impact of a major layoff. Another state commented that the NEG processes were slow
and the state spent excessive time and resources to resolve problems.

A detailed analysis of elapsed days is presented on the next page.




U.S. Department of Labor—Office of Inspector General                                       15
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs


                                     HCTC Bridge and Gap Programs
                                     NEG Application Elapsed
                                      Days as of June 30, 2004
                                                                                       Elapsed         Elapsed
                   State NEG           ETA             Secretary                        Days            Days
                   Application       Received          Approval          Award        Secretary         Award
State                Date5/6          Date6             Date6            Date6        Approval           Date
                                        [A]               [B]             [C]            [B-A]            [C-A]
Maine               2/13/2003        2/19/2003         5/30/2003       6/05/2003          100              106
Maryland            4/01/2003        4/15/2003         6/05/2003       8/18/2003          51              125
Minnesota           2/07/2003        2/27/2003         6/05/2003       6/13/2003          98              106
Montana             3/26/2003        3/26/2003         5/28/2003       6/06/2003          63               72
New Jersey          3/25/2003        3/26/2003         6/05/2003       6/20/2003          71               86
North Carolina      6/23/2003        6/25/2003         8/15/2003       8/29/2003          51               65
Ohio                4/15/2004        4/16/2004         7/15/2004       7/28/2004          90              103
Utah-1              4/17/2003        4/17/2003         6/19/2003       9/17/2003          63              153
Utah-2              3/26/2004        3/29/2004         5/01/2004       6/17/2004          33               80
Virginia            8/20/2003        8/22/2003         9/24/2003       9/24/2003          33               33
W. Virginia         5/21/2003        5/22/2003        12/22/2003       1/30/2004          214             253
Washington          5/30/2003        6/03/2003        11/20/2003       12/10/2003         170             190

                                                  Average Elapsed Days                    86              114

Recommendations

We recommend that the Assistant Secretary for Employment and Training should:


          3.      In consultation with state officials, Federal lawmakers and partnering
                  Federal agencies consider developing potential remedies to
                  address the cost barrier. For example, officials may want to consider a
                  progressive tax credit system (Finding 2A).

          4.      Address with Maine the need to implement a payment management
                  system whereby the participant only needs to pay upfront 35 percent of
                  the medical premium (Finding 2A).




5
    In those cases where a state submitted a supplement, we used the later date in our calculations.
6
    With the exception of the states audited, dates were provided by ETA and were not subject to audit.

16                                               U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs

       5.     Coordinate with PBGC, IRS and states to develop a system that
              consistently and effectively transmits the potential eligible PBGC
              population to the states or other designated party to facilitate timely
              outreach (Finding 2B).

       6.     Follow up with Maine and Maryland to ensure systems that identify and
              report ATAA individuals are operating effectively (Finding 2B).
       7.     Ensure that state outreach efforts, include increased awareness of the
              program through the One-Stop Career Center (Finding 2C).

       8.     a. Work with the partnering entities, Treasury, PBGC and the states, to
              develop a seamless process whereby individuals are ensured availability
              to all of the services provided for under TAARA (Finding 2D).

              b. The partners should consider the use of a centralized administrator,
              who would be responsible for overall coordination to ensure individuals get
              universal assistance for all available services (Finding 2D).

       9.     In consultation with state officials, and Federal lawmakers and agencies,
              consider the feasibility of allowing Bridge and Gap payments be made to
              tentatively eligible TRA individuals during the TRA eligibility process. In
              order to safeguard Federal funds the Assistant Secretary would also have
              to institute recapture mechanisms for payments made to individuals
              ultimately deemed ineligible (Finding 2D).

       10.    Implement procedures, which will ensure the timely processing of NEG
              Bridge and Gap grants. ETA should also continue to monitor the
              implementation of its new automated system to ensure that the NEG
              applications are processed timely (Finding 2E).

Agency Response

ETA concurs that there are many opportunities for improvement. Some improvements
require Congressional action (e.g. participant premium portion) while others require a
review of current administrative processes including streamlining the eligibility process,
determination of qualified health plans; enhancement of the rapid response system to
better inform trade effected workers; and more comprehensive information available
through the 600 One Stop Career Centers. ETA does not concur that there has not
been coordination with the PBGC.

ETA stated that the OIG report indicated that Maryland and Maine did not have systems
in place to identify and report eligible ATAA participants. However, it stated as of the
time of the OIG review, Maryland did not have any individuals enrolled into the
ATAA program, and thus there was no need to identify any participants.

U.S. Department of Labor—Office of Inspector General                                      17
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs


OIG Conclusion
ETA did not provide comments applicable to recommendations 4, 8 and 10. As such,
we consider those recommendations unresolved. With regard to recommendations 3, 7
and 9, ETA acknowledges the need to address these areas, but did not provide any
specific action plan. Therefore, we consider those recommendations unresolved
pending the receipt of ETA's action plan.

Regarding recommendation 6, we acknowledge that the ATAA population is small.
Although we do not consider this a major issue, that does not negate the necessity for
Maryland and Maine to have systems in place to identify and report potentially eligible
ATAA populations. It should be noted that Maine has advised us that they now have an
identification and reporting system. Based on the above, we consider recommendation
6 unresolved pending ETAs verification that Maine and Maryland have required systems
in place.

With regard to recommendation 5, the report did not indicate that ETA has not
coordinated with PBGC. However, our audit concluded that obtaining PBGC recipient
data has been sporadic. ETA indicated that several states and Federal agencies have
been actively seeking solutions which are not overly burdensome to any one entity.
ETA believes progress is being made. It is apparent that more ETA, IRS, PBGC and
state coordination is required to ensure a consistent source of data that will enable the
potentially eligible PBGC population to have access to available benefits and services.
Based on this we consider recommendation 5 unresolved pending the receipt of ETA’s
specific action plan.




18                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                                         Performance Audit of Health Coverage Tax Credit
                                                                               Bridge and Gap Programs


Objective 3 - Why Did Most States Not Participate in the HCTC Bridge and Gap
Programs?
Results and Finding: Survey Results – Reasons For Low State Participation

As of June 30, 2004, 397 of the 50 states elected not to participate in the Bridge
and Gap programs. As a result, potentially eligible populations in these states
were excluded from the program. We surveyed nonparticipating states and their
primary reasons for not participating were lack of administrative funding, staffing,
and systems required for the program. The chart below highlights the reasons for
nonparticipation.


                                                                  Percent
               Reason                                           Respondents
               Adm inistrative funding & staffing                   61
               Do not have required system s                        58
               Insurance plans                                      32
               Individual interest is lim ited                      21
               Participant affordability                            16
               Unfam iliarity and potential legal liabilities       18
               Lim ited eligible population                         16
               O ther                                               16


Administrative funding, staffing and required systems
Respondents commented that the lack of administrative funding, staffing, and the
systems required to run the program were the major reasons they did not participate.
Several states cited the 10 percent cap on administrative expenses was not sufficient to
cover the cost of administration. States also cited that they did not have the necessary
resources to develop and implement a staff intensive system to determine and verify
eligibility, set up payment arrangements with insurance companies, issue checks, track
payments, provide customer service and generate applicable tracking reports.

Lack of qualified insurance plans or limited insurance company interest
Several state officials commented that they did not have a state HCTC qualified plan. In
addition, state officials commented that insurance companies were not interested or
were reluctant to write plans that met TAARA requirements or in some cases for a
potential small group of individuals.

Unfamiliarity and potential legal liabilities
State officials commented that they were entering a new field (insurance) where they
had no expertise. They were also concerned about potential legal liability for late

7
    Thirty-eight of the 39 states responded to our survey.

U.S. Department of Labor—Office of Inspector General                                                 19
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs

payments, timeliness of identifying, verifying and enrolling eligible participants, and
liability for missed payments if the state was at fault and an individual lost coverage.

Participant affordability
Several state officials commented that the high participant’s contribution (35 percent of
total premium) towards the medical insurance premium while collecting unemployment
benefits was cost prohibitive.

Limited interest or limited eligible population
State officials commented that there has been limited individual interest to enroll in
HCTC. Several other state officials commented that they had limited TAA/TRA eligible
populations. States believed that when balanced with the resource commitment to
institute the required systems, it would not have been economically prudent to
participate in the program.

Other reasons cited by states for not participating
  •   Unavailability of PBGC data and unfamiliarity with the PBGC population.
  •   Uncertainty of future NEG funding to continue the program.
  •   Complexity of the NEG process.

Recommendations

The Assistant Secretary for Employment and Training should:

       11.    Work with nonparticipating states to address cited barriers to increase
              state participation.

       12.    Consider making funds available and clarify guidance pertaining to the use
              of administrative funds for the development of infrastructure systems.

       13.    Consider, where feasible, centralizing the processing systems or utilizing
              systems already in place by other states.

Agency Response
ETA stated that along with partner agencies it will continue to address the issues raised
by states regarding the development of qualified health plans; the development or
modification of electronic systems to enable states to streamline applicable processes;
and the development or modification of systems to identify potentially eligible
individuals. ETA acknowledges the states concern regarding lack of funds available to
provide reports to the IRS on potential eligible recipients. However, it stated that the
Bridge and Gap programs include administrative funds and that DOL issued


20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs

TEGL No. 10-02 on October 10, 2002, which informed states of the availability of
infrastructure funding. ETA also indicated that states with current Bridge/Gap funding
have expressed interest in partnering with nonparticipating states to provide premium
assistance to eligible individuals

OIG Conclusion
ETA acknowledges the need to address state concerns on an on-going basis as well as
engaging participating states to assist nonparticipating states. However its response
excludes a specific course of action. Based on this we consider recommendation 11
and 13 unresolved pending the receipt of a specific action plan.

ETA did provide some funding via TEGL 10-02, typically $50,000-$200,000 to develop
reporting and other systems under the HCTC program. However, based on state
responses to the OIG survey, states perceive a lack of administrative and/or
infrastructure funding to run a Bridge or Gap program in addition to current HCTC
program requirements. This has contributed to low state participation in the Bridge and
Gap programs. We continue to recommend that ETA provide clarifying guidance to
states regarding the use and availability of funds to build, maintain and run the
necessary systems for the Gap program. As such, we consider recommendation 12
unresolved pending the ETA issuance of further clarification and guidance.

Objective 4 – Did States Comply With Pertinent Provisions Set Forth in the Trade
Adjustment Assistance Reform Act of 2002, ETA Implementation Guidance, and
Federal Laws and Regulations?

Results and Finding: Weaknesses in Controls Could Put Federal funds at Risk

29 CFR part 97.20(b)(3) requires that all grantees maintain effective controls that
adequately safeguards assets. We identified three instances where weaknesses in
controls could put Federal funds at risk. Specifically, payments were made to
potentially eligible participants without IRS confirmation, premiums were recorded and
reported without considering the participants portion of premiums, and there was no
reporting of payments at the end of the year to participants or the IRS.

Finding 4A. Bridge and Gap payments were made to potential eligible participants
without IRS confirmation

As outlined in Unemployment Insurance Program Letter (UIPL) 33-03, dated August 18,
2003, HCTC final eligibility is made by the IRS-HCTC office. Generally, there was a
lack of communication between the IRS-HCTC and the states to ensure that Bridge and
Gap payments were in fact made to eligible individuals. As such, the potential exists
that Bridge and Gap payments could be made to ineligible individuals or individuals that
never actually applied to HCTC. A summary by state is discussed below:



U.S. Department of Labor—Office of Inspector General                                      21
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs

     Maine
     There was no communication between Maine and the IRS-HCTC office to ensure
     final eligibility or to verify that an individual in fact enrolled in the IRS-HCTC program.
     However, the Maine and IRS-HCTC application required similar questions be
     answered by the individual. Based on the individual’s response, Maine would deem
     an individual eligible or ineligible for HCTC Bridge and Gap payments.

     Maryland
     IRS-HCTC office provides Maryland with a biweekly consent report that includes the
     individual’s eligibility status as either a candidate or as a HCTC participant.
     However, the report does not include individuals that applied for the HCTC program
     and were deemed ineligible by the IRS. There was no other communication
     between IRS-HCTC and Maryland to ensure final eligibility. In addition, the State
     application does not request certain eligibility information included in the IRS-HCTC
     application.

     Utah
     The State’s program administrator Benefit Insurance Group (BIG), assisted
     individuals in enrolling in the HCTC Bridge and Gap programs. However, there was
     no communication between the IRS and the State’s contractor regarding individuals
     that were deemed ineligible by the IRS for the program.

Finding 4B. Maryland recorded Gap payments at 100 percent of premium amount
with no regard to participant portion

Maryland has a contract with the Lower Shore Private Industry Council (LSPIC) to
provide for the administration of the State’s Bridge and Gap programs. Maryland
procedures require participants to forward 35 percent of the premium cost to the State’s
agent, who then disburses 100 percent of the premium to the insurance carrier.
LSPIC’s Financial Status Report as of June 30, 2004, reflected health coverage
premiums at 100 percent of the premium costs. As a result, Maryland’s reported
expenditures of $34,919 as of June 30, 2004, were overstated by $8,938. Maryland
representatives were made aware of this issue during our fieldwork and have revised
their FSR to reflect the corrected amount. Maryland officials have stated that they will
ensure that existing controls are adhered to so that this situation does not occur again.

Finding 4C. No system to report Bridge and Gap payments to the IRS

There were no systems required to annually report to the participant or the IRS
payments made under the Bridge and Gap programs. As such, the potential exists that
participants could recover the cost of premiums twice, once though the gap payment
and secondly though the year-end tax credit. This issue is most prevalent in the State
of Maine, as the participant must pay up front the entire premium to the insurance


22                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs

company before receiving any reimbursement. Therefore, the possibility exists that
participants could use the same proof of payment when filing for the year-end tax credit.
It should be noted that the IRS uses Form 1099H for the reporting of payments.
However, it only requires that providers of qualifying healthcare coverage file an
information return with the IRS reporting advance payments received from the
Department of the Treasury on behalf of eligible individuals.

Recommendations

The Assistant Secretary for Employment and Training should:

       14.    a. Work with IRS-HCTC office to implement a consistent system of
              communication between the states and the IRS-HCTC office to ensure
              that individuals receiving Bridge and Gap payments are in fact entitled to
              benefits (Finding 4A).

              b. In order to make timely payments while safeguarding Federal funds, the
              Assistant Secretary should also consider the feasibility of instituting
              recapture mechanisms for payments made to individuals ultimately
              deemed ineligible (Finding 4A).

       15.    Ensure that Maryland maintains procedures so that internal controls are
              operating effectively for the recording of expenditures. In addition, we
              recommend that procedures be incorporated during ETA monitoring to
              ensure that premium expenditures are not over recorded at other
              participating states (Finding 4B).

       16.    In conjunction with the IRS implement a mechanism for the state to report
              to the IRS and the participant, Gap payments made to a participant each
              calendar year (Finding 4C).

Agency Response

ETA response stated that they have worked closely with the IRS-HCTC office since the
passage of the Trade Reform Act of 2002. There are monthly or bi-monthly conference
calls which include representatives from the IRS-HCTC, ETA and states. IRS-HCTC
has representatives available by region to work with states, and HHS has worked with
states in the development of qualified health plans.

OIG Conclusion
Although we commend ETA for its on-going efforts and communication with partnering
agency, its response does not address the issues specified in recommendations 14, 15,
and 16. As such these recommendations are unresolved.



U.S. Department of Labor—Office of Inspector General                                       23
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs

Results and Finding: Grant Management Needs Improvement

Employment and Training Order No. 1-03, dated April 17, 2003, sets forth the policy for
pre- and post-award grant management, including quarterly assessments. The intent is
to ensure that grantees deliver agreed upon services and meet goals within the budget
negotiated in the grant agreement. We identified the following areas, which are
indicative of a breakdown of the grant management process.

Finding 5A. Expenditures were excluded from premium calculation-Utah

Utah’s approved HCTC Bridge and Gap grant proposals reflected a State operated
health plan. During our analysis of the proposed/approved grant budgets and actual
expenditures incurred, we identified certain expenditures that were charged 100 percent
to the HCTC Bridge and Gap programs. The costs identified are typically recovered
through insurance premiums. This methodology resulted in a cost savings to the
participant and increased cost to the NEG grant.

The ETA Grant Officer, and the then Acting Executive Director for Utah Department of
Workforce Services, acknowledged that the following expenditures charged to the
HCTC Bridge and Gap programs would normally be recovered by an insurance carrier
through insurance premiums. As a result, the acceptance of the proposal by ETA
resulted in additional cost to the government of $239,712, which would have normally
been borne by participants through the payment of premiums.

            Expenditure Line Item                         Amount
            Data Management. System/Licensing            $203,600
            Office Burden                                 156,000
            Actuarial Fees                                 32,229
            Legal Fees                                      5,300
            Consulting Fees                                17,000
            Fixed Costs                                   270,762
                Total Charged Directly to HCTC            684,891
                Less: HCTC 65 Percent Portion             445,179
                Additional Program Cost                  $239,712

Effective March 1, 2005, Utah no longer maintains a state based insurance plan. An
outside insurance carrier, Intermountain Health Care (IHC) is the provider.

Finding 5B. Delay in Utah State operated health plan qualification-Cost Impact

In accordance with the ETA’s TEGL No. 20-02, Change 1, as well as the grantees’ own
proposals, gap payments were to be made for a period not to exceed 3 months until the
IRS–HCTC enrollment process was complete. However, since there was a delay in the
IRS recognizing Utah’s plan, individuals did not transition into the IRS-HCTC program
and continued to receive assistance through the HCTC Gap program. As a result, Utah
on average made payments for 6.5 months per participant.

24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs

ETA is aware of the situation. Utah has submitted a grant modification to ETA that will
retroactively approve expenditures to allow for the extended payments resulting from
the plan delay. They are awaiting ETA approval. The delay resulted in the following cost
impact to the NEG grants:

Total Premium Payments Paid with HCTC Bridge and Gap Funds                    $669,122
Total Premium Payments if Gap Payments were made (3 months)                    250,315
   Cost Impact of Delay in Qualification of Insurance Plan                    $418,807

Finding 5C. Lack of program progress reports
The provisions of the NEG award and TEGL 20-02 require the grantee to submit a
narrative report and form ETA 9104 to ETA on a quarterly basis. Narrative reports are
intended to provide ETA with insight into grant progress, encountered problems, etc.
The ETA form 9104 provides statistical information such as participant counts and
services provided. There were inconsistencies among the way the three states
submitted required reports as follows:

   •   Maine did submit program narratives but did not submit ETA Forms 9104.
   •   Maryland did not submit program narratives or ETA Forms 9104.
   •   Utah did not submit program narratives but did submit ETA Forms 9104.

Recommendations

The Assistant Secretary for Employment and Training should:

       17.    Ensure that during the review of grant actions involving state-operated
              plans that proposed premium calculations reflect all costs that are typically
              recovered through insurance premiums (Finding 5A).

       18.    Reinforce existing policies and procedures that require monitoring and
              assessments on a regular basis to ensure compliance with grant
              provisions and allow for necessary grant actions on a timely basis
              (Finding 5B).

       19.    Ensure consistent program reporting (Finding 5C).


Agency Response

ETA responded that they clarified the roles and responsibilities for monitoring NEG
projects since the OIG audit concluded in 2004. An on-site review guide is currently
under review. Special attention will be given to HCTC projects.




U.S. Department of Labor—Office of Inspector General                                      25
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs


OIG Conclusion
Although ETA has indicated it was taking actions in enhancing NEG grant management
activity, it did not sufficiently address recommendations. Therefore, recommendations
17, 18 and 19 are unresolved pending receipt of revised field guidance and review
guide covering cited issues.




Elliot P. Lewis
March 18, 2005




26                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs




Exhibits




U.S. Department of Labor—Office of Inspector General                                      27
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                                                                                                         Performance Audit of Health Coverage Tax Credit
                                                                                                                                               Bridge and Gap Programs
                                                                                                                                                            E xhibit A
                                                      T ren d An alysis o f B rid g e an d G ap G ran t E xp en d itu res
                                                 Q u arters E nded M arch 31, 2004 Through D ecem ber 31, 2004
                                                                     C u m u lative      C u m u la tive          C u m u lative      C u m u lative   C u m u lative
                                  E ffective        End                 Aw ard          E xp end itu re s        E xp en d itu res E xp en d itu res E xp en d itu res
           S ta te                 D ate (1)     D a te (1)          Am o u n t (1)/(2) 1 2/31/20 04 (3)          9 /3 0/20 04 (3)    6 /3 0/20 04 (3) 3/31/2 004 (3)
           Florida                    9/1/20 04  8 /3 1/20 06          $1 2,566 ,852            $ 11,55 7                          $0              $0                $0
           Illin ois                  7/1/20 04  6 /3 0/20 06             2,802 ,966                     0                          0                0                0
           K e ntucky                 7/1/20 04  6 /3 0/20 06             2,317 ,865                  28 8                          0                0                0
           M aine                     9/1/20 02  6 /3 0/20 07             7,500 ,000            4 42,36 5                 $ 417 ,2 26        3 78,15 8       297 ,5 76
           M aryla nd                 3/3/20 03  6 /3 0/20 05             5,632 ,000            1 12,43 9                    30 ,8 30          29,56 9         15 ,9 34
           M in ne sota-1             1/1/20 03  9 /3 0/20 03                21 1,000           2 04,94 3                   204 ,9 43        2 04,94 3       193 ,7 01
           M in ne sota-2           9/30/20 04   6 /3 0/20 07             2,754 ,264                9,60 4                          0                0                0
           M on ta na                 4/1/20 03 12 /3 1/20 03                11 4,548           1 14,53 1                   114 ,5 31        1 14,53 1       114 ,5 48
           N ew Jerse y               1/1/20 03  6 /3 0/20 04             1,930 ,000              30,93 1                    30 ,9 31          30,93 1         30 ,9 31
           N orth C a rolin a         8/1/20 03  6 /3 0/20 06             7,614 ,684          2,90 1,30 9                2 ,312 ,1 10      1,65 6,51 7     1,214 ,8 39
           O hio                    5/15/20 04   6 /3 0/20 05             1,569 ,493              24,28 9                           0                0                0
           U ta h-1                   4/1/20 03  1 0/1/20 03                 72 1,415           7 21,41 5                   721 ,4 15        7 21,41 5       693 ,7 85
           U ta h-2                 10/1/20 03   6 /3 0/20 05             3,065 ,477          1,83 5,64 6                1 ,650 ,6 74        5 59,60 7                0
           V irginia                  8/1/20 03  9 /3 0/20 07             3,176 ,800            7 16,32 1                   685 ,4 96        5 92,82 7       481 ,3 43
           W . V irginia              6/1/20 03  9 /3 0/20 05             2,852 ,374          1,36 0,56 0                1 ,293 ,5 33      1,07 5,91 3                0
           W a shington               6/1/20 03  6 /3 0/20 06             1,512 ,000              40,09 2                        8 62                0                0

                                                     T o tal            $5 6,341 ,738          $8,52 6,29 0           $7 ,4 62 ,5 51     $5 ,3 64,41 1    $ 3,042 ,657

                                C u m u la tive aw ard le ve l                               $ 56,3 41,73 8          $56 ,3 41 ,7 38    $ 38,2 27,37 1   $3 5,206 ,196
                                P erc en t ex pe nd ed to aw ard a m o u n t                    15 .1                 1 3.2                 1 4.0            8 .6

                                Q u arterly exp en ditu re le ve l                             $1,06 3,73 9           $2 ,0 98 ,1 40     $2 ,3 21,75 4



           1. R epresents data obtained from E T A , updated through M arch 3, 2005. T his data has not been subject to audit procedures.

           2. A ll of F Y 2002 funding of $50 m illion has been aw arded. $6.3 m illion of the $30 m illion F Y 2003 funding has been aw arded.

           3. W ith the exception of expenditures for M aine (3/31/04), M aryland (6/30/04) and U tah (6/30/04), data w as obtained from E T A
           and w as not subject to audit.




U.S. Department of Labor—Office of Inspector General                                                                                                                      29
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs




                                            PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                                                          U.S. Department of Labor—Office of Inspector General
                                                                                                Report Number: 02-05-204-03-330
                                                                                                        Performance Audit of Health Coverage Tax Credit
                                                                                                                              Bridge and Gap Programs

                                  Steps to Enroll and Receive Advanced HCTC                                        EXHIBIT B

                            TAA/TRA Recipient                                                             PBGC Beneficiary
1.   Worker displaced due to foreign competition                              1. Retirees pension plan is terminated due to former employer going
2.   Workers, Union, or Company Officials petitions USDOL                        bankrupt or experiences severe financial difficulty, PBGC takes
3.   USDOL certifies petition and notifies SWA                                   over plan
4.   SWA obtains workers names and notifies workers                           2. PBGC identifies and sends names of beneficiaries potentially
     to apply for TAA benefits                                                   eligible to IRS/HCTC office monthly
                                                                              3. IRS/HCTC office mails information and enrollment packet for advance
                                                                                 HCTC to individuals identified by PBGC as potentially eligible

5    Worker applies for TAA and TRA, enrolls in training or training waiver
6.   SWA determines worker eligibility for TAA and TRA
7.   SWA sends names of potentially eligible to IRS/HCTC office daily
8.   IRS/HCTC office mails information and enrollment packet for advance      4. Beneficiary enrolls in a qualified health plan (if not already enrolled)
     HCTC to individuals identified by SWA as potentially eligible            5. Beneficiary enrolls for advance HCTC by phone or mail




9. Recipient enrolls in a qualified health plan (if not already enrolled)
10. Recipient enrolls for advance HCTC by phone or mail
11. IRS/HCTC office determines eligibility and registers the qualified
    health plan to receive advance HCTC (if not already registered)           6. IRS/HCTC office determines eligibility and registers the qualified
                                                                                 health plan to receive advance HCTC (if not already registered)
                                                                              7. IRS/HCTC sends beneficiary invoice for 35 percent of eligible
                                                                                 premium each month
12. IRS/HCTC office sends recipient invoice for 35 percent of eligible        8. HCTC enrollee sends 35 percent of eligible premium to
    premium each month                                                           IRS/HCTC office
13. HCTC enrollee sends 35 percent of eligible premium to IRS/HCTC office     9. IRS matches 35 percent from enrollee with 65 percent and
14. IRS matches 35 percent from enrollee with 65 percent and                     sends full premium to health plan
    sends full premium to health plan




      U.S. Department of Labor—Office of Inspector General                                                                                                  31
      Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 02-05-204-03-330
                                       Performance Audit of Health Coverage Tax Credit
                                                             Bridge and Gap Programs




Appendices




U.S. Department of Labor—Office of Inspector General                                     33
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 02-05-204-03-330
                                       Performance Audit of Health Coverage Tax Credit
                                                             Bridge and Gap Programs


                                                                      APPENDIX A

BACKGROUND

The Trade Adjustment Assistance Reform Act (TAARA) of 2002 (P.L. 107-210)
was signed by the President on August 6, 2002. Among other things, TAARA
amended the Internal Revenue Code of 1986 and the Workforce Investment Act
of 1998 (WIA) to establish new mechanisms by which certain Trade Adjustment
Assistance (TAA) participants, as well as eligible Pension Benefit Guaranty
Corporation (PBGC) pension recipients could receive assistance in covering the
cost of health insurance coverage. The primary mechanism for such assistance
is a Federal tax credit administered by the Internal Revenue Service. The tax
credit is equal to 65 percent of the amount paid by an eligible individual for
coverage of the individual and certain family members under qualified health
insurance coverage. The tax credit was made available on an advance payment
basis on August 1, 2003.

TAARA also established an additional mechanism, which was intended to be
used as a Bridge and Gap during the IRS’s HCTC advance option
implementation and enrollment processes. Bridge funding was utilized to provide
interim health insurance coverage cost assistance until the HCTC advance
payment system was implemented by the IRS on August 1, 2003. Gap funding is
used to provide interim health insurance coverage cost assistance until the IRS
completes the advance credit enrollment and first payment processes under the
HCTC program.

To carry this out, TAARA authorized $50 million of Fiscal Year (FY) 2002 NEG
funds for interim health insurance coverage and other assistance. In addition,
another $30 million was authorized in an appropriation for FY 2003 in the
Consolidated Appropriations Resolution, 2003, Public Law 108-7.

Individuals eligible for health insurance coverage assistance under TAARA are:

   •   An individual who is receiving a trade readjustment allowance (TRA)
       under the Trade Act, or would be eligible for TRA except that he/she
       has not yet exhausted Unemployment Insurance benefits.

   •   An individual who is receiving benefits under a demonstration program
       of alternative trade adjustment assistance (ATAA) for older workers
       under section 246 of TAARA.

   •   An individual who is 55 years of age or older and is receiving a pension
       benefit paid in whole or part by PBGC.




U.S. Department of Labor—Office of Inspector General                                     35
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs

In addition, coverage may also be provided for the spouse and dependents of
an eligible individual where such persons are not otherwise covered by
healthcare insurance. Dependents are limited to those persons who are
allowable dependent deductions on the eligible individual's tax return.




36                                U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 02-05-204-03-330
                                        Performance Audit of Health Coverage Tax Credit
                                                              Bridge and Gap Programs


                                                                        APPENDIX B

OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

The Office of Inspector General conducted a performance audit of the National
Emergency Grants used to administer the HCTC Bridge and Gap programs. Our
objectives were to determine whether a significant number of HCTC potentially
eligible individuals availed themselves of the program and to identify barriers,
which could limit program participation. We also conducted procedures to
determine whether expenditures incurred and reporting systems implemented
were in accordance with TAARA, implementation guidance and applicable laws
and regulations. To accomplish this, we designed our work to answer the
following questions.

        •   Did a significant number of potentially eligible individuals avail
            themselves of the program and were appropriated funds being
            utilized?

        •   What were the barriers that resulted in low individual participation?

        •   Why did most states not participate in the HCTC Bridge and Gap
            programs?

        •   Did states comply with pertinent provisions set forth in TAARA, ETA
            implementation guidance, and Federal laws and regulations?


Scope

Our audit was conducted in accordance with Government Auditing Standards
issued by the Comptroller General of the United States and included such tests
as we considered necessary to satisfy the audit’s objectives. We selected the
states of Maine, Maryland and Utah for audit. The audit period covered from
each state’s grant inception through June 30, 2004. Fieldwork was conducted
from June 7, 2004, through March 18, 2005. An exit conference was held with
ETA on August 29, 2005.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our
performance audit, we considered whether internal controls significant to the
audit were properly designed and placed in operation.


U.S. Department of Labor—Office of Inspector General                                      37
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs

Methodology

Of the 11 states participating as of June 30, 2004, we conducted field audits in
the states of Maine, Maryland, and Utah. In selecting these states, we
considered size of the grant, spending patterns, geography, and other factors
deemed relevant to our audit. We also performed analytical procedures at the
remaining eight participating states and obtained input of the underlining
causes/barriers that resulted in low participation.

At each audit site, our work covered: implementation of the HCTC program,
ensuring that required HCTC reporting systems were in place and operating
effectively, analytical procedures to identify potential participation barriers,
selection and review of participant files, and tests of costs to the grantee
accounting records.

We surveyed Bridge and Gap participants and nonparticipants to obtain insight
and to determine why participation in the HCTC program was low. Our statistical
sample consisted of 604 individuals, 152 surveys were sent to participants and
452 to nonparticipants. One hundred and four participants and 225
nonparticipants responded to our survey, respectively. However, we found
through our survey that out of 225 nonparticipants, 36 individuals actually
participated in the HCTC program, 33 through IRS-HCTC only and 3 in the state
program. As such, these 36 responses were included in the participant results.

We also surveyed nonparticipating states to determine why they chose not to
participate in the HCTC Bridge and Gap programs. Our sample consisted of 39
surveys of which 38 states responded.

In cases where issues were inseparable or had impact extending to the HCTC
program as a whole, we adjusted our work and have included applicable
conclusions in the report.

GAO audit reports, private studies and IRS Scorecard information were obtained
to provide insights of other work and statistical information regarding the HCTC
program.




38                                U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 02-05-204-03-330
                                       Performance Audit of Health Coverage Tax Credit
                                                             Bridge and Gap Programs


Criteria

We used the following criteria to perform this audit:

   •   The Trade Adjustment Assistance Reform Act of 2002 (P.L. 107-210)
   •   Unemployment Letter (UIPL) No. 02-03 dated October 10, 2002
   •   Unemployment Letter (UIPL) No. 05-03 dated November 22, 2002
   •   Training and Employment Guidance Letter (TEGL) No. 10-02 dated
       October 10, 2002
   •   Training and Employment Guidance Letter (TEGL) No. 11-02 dated
       October 10, 2002
   •   Training and Employment Guidance Letter (TEGL) No. 16-02 dated
       December 3, 2002
   •   Training and Employment Guidance Letter (TEGL) No. 20-02 dated
       March 3, 2003
   •   Unemployment Letter (UIPL) No. 24-03 dated April 14, 2003
   •   Unemployment Letter (UIPL) No. 33-03 dated August 18, 2003
   •   Training and Employment Guidance Letter (TEGL) No. 11-02, Change 1
       dated November 6, 2003
   •   Training and Employment Guidance Letter (TEGL) No. 20-02, Change 1
       dated May 13, 2004
   •   OMB Circular A-87 (Cost Principles for State, Local and Indian Tribal
       Governments)
   •   Part 97 of CFR 29 (Uniform Administrative Requirements for Grants and
       Cooperative agreements to State and Local Governments)




U.S. Department of Labor—Office of Inspector General                                     39
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




40                                U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 02-05-204-03-330
                                        Performance Audit of Health Coverage Tax Credit
                                                              Bridge and Gap Programs


                                                                        APPENDIX C
ACRONYMS AND ABBREVIATIONS

ATAA          Alternative Trade Adjustment Assistance
CFR           Code of Federal Regulations
ETA           Employment and Training Administration
FSR           Financial Status Report
GAO           Government Accountability Office
HCTC          Health Coverage Tax Credit
IHC           Intermountain Health Care
IRS           Internal Revenue Service
NEG           National Emergency Grant
OIG           Office of Inspector General
OMB           Office of Management and Budget
PBGC          Pension Benefit Guaranty Corporation
SWA           State Workforce Agency
TAA           Trade Adjustment Assistance
TAARA         Trade Adjustment Assistance Reform Act
TEGL          Training and Employment Guidance Letter
TRA           Trade Readjustment Allowance
UI            Unemployment Insurance
UIPL          Unemployment Insurance Program Letter
USDOL         U.S. Department of Labor
WIA           Workforce Investment Act




U.S. Department of Labor—Office of Inspector General                                      41
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 02-05-204-03-330
                                               Performance Audit of Health Coverage Tax Credit
                                                                     Bridge and Gap Programs


                                                                                APPENDIX D

SURVEY RESULTS – BRIDGE AND GAP PARTICIPATING STATES

As of June 30, 2004, 11 states availed themselves of the Bridge and Gap
programs. We surveyed all 11 states of which 10 responded. We asked
participating states their opinions as to what they thought were the underlying
causes/barriers that resulted in low individual participation. As shown below,
states indicated that the cost of insurance, and the complexity of the eligibility
process were primary reasons contributing to low participation.

                                                  Percent of
           Major Reasons                         Respondents
           Premium too costly                      80
           Complex & fragmented                    70
           Process time & upfront cost             60
           TRA eligibility process                 50
           Lack of outreach                        50
           NEG not timely                          40



Premium Cost

Overwhelmingly, 80 percent of states responding said that the participant’s contribution
towards the medical insurance premium (35 percent) while collecting unemployment
benefits is cost prohibitive and had a negative impact on participation. One state
suggested that allowing the state to make 100 percent payment during the gap period
would allow up-front savings to the participant and allow them to prepare for the 35
percent contribution to the IRS-HCTC advance program. Another suggested raising the
government contribution to 80 or 90 percent.

Complex and Fragmented System
States indicated that the HCTC system was complex and involved too many parties
such as USDOL, IRS, state, and health plan providers. Individuals were confused
regarding the intent of the program, the application process and differences between
the IRS and state Bridge and Gap programs. The states also stated that the application
process overwhelms individuals.

TRA Eligibility Process and Up-Front Costs

Most states indicated that the long TRA eligibility process contributed to the low
participation. Some indicated that the items required in determining TAA/HCTC
eligibility status (TRA eligible, in training or on wavier) takes a long period of time to

U.S. Department of Labor—Office of Inspector General                                         43
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs

establish and hinders a time sensitive benefit. Several months can pass before the
complete HCTC eligibility status has been determined and reported to the IRS-HCTC
office. During the TRA eligibility process the individual must pay 100 percent of health
insurance premium cost. State officials suggested that lifting or relaxing TRA eligibility
requirements for HCTC purposes would increase participation in the program.

One state cited that under section 231(a) of TAARA, the first week of potential TRA
entitlement is the first week of unemployment that begins more than 60 days after the
filing date of a petition that is later certified. An individual is not potentially eligible for
HCTC until they are eligible for TRA. As such, the system has an inherent time lag,
which requires an individual to pay the cost of continued insurance during that period.

Lack of Outreach
Fifty percent of the states responding indicated the need for increased awareness of the
program, outreach, and assistance in the enrollment process. State officials also
commented that obtaining PBGC information was challenging and time-consuming or
that they were unable to obtain PBGC information.

NEG Timeliness
Forty percent of states indicated that lack of NEG timeliness resulted in delayed
implementation of the program. One state indicated that by the time of program
implementation it had missed the impact of a major layoff. Another state official
commented that the NEG processes were slow and the state spent excessive time and
resources to resolve problems.




44                                          U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 02-05-204-03-330
                                                     Performance Audit of Health Coverage Tax Credit
                                                                           Bridge and Gap Programs


                                                                                         APPENDIX E

SURVEY RESULTS – BRIDGE AND GAP NONPARTICIPANTS

Our survey consisted of a statistical sample of 452 Bridge and Gap
nonparticipants of which 2251 nonparticipants responded to our survey. We
found that a majority of nonparticipants were aware of the HCTC program, but
chose not to participate due to cost. We also found a significant number of
nonparticipants that were unaware of the program and would have considered
enrolling.

                    Were nonparticipants aware of the HCTC program?

Sixty-six percent of nonparticipants answered that they were aware of the
program.2



                       No
                      34%
                               65 Individuals
                                                      124 Individuals




                                                                          Yes
                                                                          66%


                                189 Nonparticipants Responded




1
  We found through our survey that out of 225 respondents, 36 individuals actually participated in
the program, 33 through IRS-HCTC and 3 that participated in the state program. As such, these
36 individuals were included in the participant results. In addition, we asked the 33 individuals
why they only participated in the IRS-HCTC program, 85 percent of the individuals that
responded stated that they did not know about the state program.
2
 189 excludes 33 individuals that participated in the National HCTC program and 3 individuals that
participated in the state program even though their names were in the sampled nonparticipant universe.


U.S. Department of Labor—Office of Inspector General                                                 45
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs


                     How did nonparticipants learn about the program?

Sixty-five percent of the nonparticipants who were aware of the program
answered that they learned about the program through a letter from the state
workforce agency.


                                                  Stated as a Percent of Nonparticipant
                                                  Responses to Total Respondents
                                 65%

                                                   124 Nonparticipants Responded




                                           19%
                                                       15%         14%           11%



                                         TAA                    One Stop
                              Ltr DOL              Union Rep                  Other
                                        Session                  Center
           No. of Responses     80        23           18          17           14




       Would additional administrative assistance have increased participation?

Seventy-two percent of the nonparticipants who were aware of the program answered
that they would not have participated in the HCTC program even if they had additional
administrative assistance in preparing and submitting enrollment forms.


                        Would Additional Administrative
                              Assistance Help?

                                                                    Yes
                                                                    28%




                         No
                        72%




46                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 02-05-204-03-330
                                                          Performance Audit of Health Coverage Tax Credit
                                                                                Bridge and Gap Programs


    Why nonparticipants who were aware of the program chose not to participate?

Cost was the most significant reason cited by nonparticipant respondents for not
participating in the program. As depicted in the chart below, 71 percent of those
needing services3 stated that the premium cost was the biggest issue for not
participating.

                 80%
                           71%
                 70%

                 60%
                                                          122 Nonparticipants Responded

                 50%

                 40%                  Stated as a Percentage of Nonparticipant Responses to Total Respondents

                 30%
                                                         21%
                 20%
                                                                                       14%
                 10%

                  0%
                             Too Costly                  Too Complex                       Other




Would nonparticipants have considered enrolling had they been made aware of
the program?

More than 60 percent of individuals that were unaware of the program responded that if
they had known they would have considered participating.


                                      Consider Enrolling?
                                        No
                                                                        Yes
                                       38%
                                                                        62%

                                 22 Individuals
                                                            36 Individuals




                                 Of 65 Nonparticipants 58 Responded




3
  Our calculations exclude responses of those individuals who did not need services or did not qualify for
the program, i.e., spousal coverage, obtained job, and those who did not qualify, i.e., Medicare.


U.S. Department of Labor—Office of Inspector General                                                            47
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs


What were the reasons why individuals would not consider enrolling even if they
had been made aware of the program?

All 22 nonparticipating individuals responded. As depicted in the chart below,
cost and complexity of the program were the primary reasons why individuals
would not participate.


                          If Made Aware Why Not Enroll?



                                   Other
                                   31%            Too Costly
                                                     38%


                                        Too
                                      Complex
                                        31%




Did nonparticipants think the Health Coverage Tax Credit program would be
helpful to them?

Sixty-five percent responded that the program would be helpful.


                     Would the HCTC Program Be Helpful to You?


                              No
                             35%                       Yes
                                                       65%




                          Of 189 Nonparticipants 163 Responded




48                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                      49
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs

                                                                                               APPENDIX F

SURVEY RESULTS – BRIDGE AND GAP PARTICIPANTS

We surveyed participants to evaluate the effectiveness of the program. Our survey
consisted of a statistical sample of 152 Bridge and Gap participants of which 104
participants responded.1 We found that a majority of participants felt the program was
extremely helpful, and the enrollment process was not difficult. Most participants left the
program because they obtained insurance through employment or other means.
However, participants commented that the program was too complex and costly.

                Overall, how helpful did the participants think the program was?

Fifty-seven percent of participants answered that they thought the program was
extremely helpful.

                                         Overall - 5 Being the Most Helpful


                                                                  1 Rank
                                                                   22%
                          5 Rank
                           57%
                                                                                     2 Rank
                                                                                       7%



                                                                                   3 Rank
                                                                                     7%
                                                                       4 Rank
                                                                         7%


                                       Of 140 Participants 138 Responded




1
 Our analysis includes 140 individuals: 104 Bridge and Gap participants and 36 individuals that were originally
categorized as nonparticipants who actually participated in the program through IRS or the state.



50                                                 U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 02-05-204-03-330
                                                      Performance Audit of Health Coverage Tax Credit
                                                                            Bridge and Gap Programs


                How did participants learn about the HCTC program?

Forty-four percent of responding participants stated that they learned about the
program from a state letter.



                                           Stated as a Percent of Participant Responses to
                                 44%       Total Respondents

                                                35%
          136 Participants
          Responded
                                                          27%
                                                                        24%




                                                                                  6%

                                                        TAA        One Stop
                             Ltr DOL    Union Rep                               Other
                                                       Session      Center
          No of Responses       60         48            37            32        8




             How Difficult was the HCTC program enrollment process?

Generally, individuals that participated in the program felt that the enrollment
process was not extremely difficult.
     .
                    Enrollment Process - Rank 5 being the most difficult



                                       Rank 5
                            Rank 4
                                        7%                             Rank 1
                             9%
                                                                        28%



                   Rank 3
                    24%
                                                              Rank 2
                                                               32%

                                 Of 140 Participants 137 Responded




U.S. Department of Labor—Office of Inspector General                                              51
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs


     How helpful did participants find the program staff in the enrollment process?

Forty-two percent of the participants responded that the program staff was extremely
helpful in assisting them with the enrollment process.


                             Program Staffs - 5 being the most helpful 42%


                        60
                        50
                                         17%
          Responses 40                               15%
                                                               13%         13%
                        30
                        20
                        10
                         0
                                Rank 1      Rank 2       Rank 3      Rank 4      Rank 5


                                  Of 140 Participants 134 Responded




                     Why participants no longer participate in HCTC?

Majority of participants left the program since they were able to obtain insurance
through employment or other means.


                                      56%



                                               Stated as a Percent of Participant Responses to
                                               Total Respondents

          59 Individuals Left
          the Program                              15%
                                                               10%
                                                                           8%
                                                                                       7%        7%



                               Obtain                                             Too
                                         Too Costly Medicare UI Expired                     Misc.
                               Job/Ins                                          Complex
           No of Responses       33            9           6           5           4         4




52                                                   U.S. Department of Labor—Office of Inspector General
                                                                         Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs


                     Supplemental Comments Likes and Dislikes

Participants commented that they liked the cost savings of the program, but still found
the program to be complex and costly.


                          Admin
            Staff          4%                    Limited      Admin
            14%                                  Insurers    Staff not
                                                                                 Complex
                                                   9%        Helpful
                                                                         Other    31%
                                                               9%
                                                                          7%




                     Savings
                      82%
                                                             Slow
                                                                                  Too
                                                            Process
                                                                                 Costly
                                                             15%
                                                                                 29%

                      Likes                                        Dislikes
           Of 140 participants 123                          Of 140 participants 75
             Provided comments                               Provided comments




U.S. Department of Labor—Office of Inspector General                                       53
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




54                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs


                                                                             APPENDIX G

AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                      55
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs




56                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs




U.S. Department of Labor—Office of Inspector General                                      57
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs




58                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
                                              Performance Audit of Health Coverage Tax Credit
                                                                    Bridge and Gap Programs




U.S. Department of Labor—Office of Inspector General                                      59
Report No: 02-05-204-03-330
Performance Audit of Health Coverage Tax Credit
Bridge and Gap Programs




60                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-204-03-330
